VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS




                                                                       Inspection of

                                                                    VA Regional Office

                                                                     Des Moines, Iowa





                                                                                  August 7, 2014
                                                                                   14-01501-229

                                 ACRONYMS



FY           Fiscal Year
OIG          Office of Inspector General
RVSR         Rating Veterans Service Representative
SAO          Systematic Analysis of Operations
SMC          Special Monthly Compensation
STAR         Systematic Technical Accuracy Review
TBI          Traumatic Brain Injury
VARO         Veterans Affairs Regional Office
VBA          Veterans Benefits Administration
VSC          Veterans Service Center




       To Report Suspected Wrongdoing in VA Programs and Operations:

                           Telephone: 1-800-488-8244

                          Email: vaoighotline@va.gov

                 (Hotline Information: www.va.gov/oig/hotline)

                   Report Highlights: Inspection of VA
                   Regional Office Des Moines, IA

Why We Did This Review                            timely. However, VARO staff did not
                                                  timely or accurately complete 20 of
The Veterans Benefits Administration              30 proposed benefits reduction cases due to
(VBA) has 56 VA Regional Offices                  VBA addressing other higher workload
(VAROs) and a Veterans Service Center             priorities.
(VSC) in Cheyenne, Wyoming, that process
disability claims and provide a range of          What We Recommended
services to veterans. We evaluated the Des
Moines VARO to see how well it                    We recommended the VARO Director
accomplishes this mission.                        review the 131 temporary 100 percent
                                                  disability evaluations remaining from our
What We Found                                     inspection universe and take appropriate
                                                  action. The Director should establish a
Overall, VARO staff did not accurately            second-level review process and ensure
process 13 (23 percent) of 57 disability          specialized staff complete complex SMC
claims reviewed. We sampled claims we             claims. The Director also should develop
considered at increased risk of processing        and implement a plan to ensure staff timely
errors, thus these results do not represent the   process benefits reductions.
overall accuracy of disability claims
processing at this VARO.                Claims    Agency Comments
processing that lacks compliance with VBA
procedures can result in the risk of paying       The Director of the Des Moines VARO
inaccurate and unnecessary financial              concurred with all recommendations. We
benefits.                                         will follow up on actions as deemed
                                                  necessary.
Specifically, 7 of 30 temporary 100 percent
disability evaluations we reviewed were
inaccurate, primarily because management
did not prioritize processing claims
requiring reduced evaluations. Generally,
VARO staff demonstrated experience and
knowledge in correctly processing complex                  LINDA A. HALLIDAY
traumatic brain injury claims. VARO staff               Assistant Inspector General
incorrectly processed three of nine special             for Audits and Evaluations
monthly compensation (SMC) and ancillary
benefits claims because specialized staff did
not complete these claims as required and
the VARO had no second-level review
process.

Management generally ensured Systematic
Analyses of Operations were complete and
                                           TABLE OF CONTENTS


Introduction......................................................................................................................................1


Results and Recommendations ........................................................................................................2


    I. Disability Claims Processing ..................................................................................................2


            Finding 1	           Des Moines VARO Could Improve Disability Claims Processing

                                 Accuracy ......................................................................................................2


                                 Recommendations........................................................................................9


  II. Management Controls...........................................................................................................10


            Finding 2	           Des Moines VARO Lacked Oversight To Ensure Timely Action

                                 On Proposed Benefits Reductions .............................................................11


                                 Recommendation .......................................................................................13


Appendix A                 VARO Profile and Scope of Inspection ...........................................................14


Appendix B                 Inspection Summary .........................................................................................16


Appendix C                 VARO Director’s Comments ...........................................................................17


Appendix D                 OIG Contact and Staff Acknowledgments .......................................................20


Appendix E                 Report Distribution ...........................................................................................21

                                                            Inspection of the VARO Des Moines, IA



                    INTRODUCTION
Objective           The Benefits Inspection Program is part of the Office of Inspector General’s
                    (OIG) efforts to ensure our Nation’s veterans receive timely and accurate
                    benefits and services. The Benefits Inspection Divisions contribute to
                    improved management of benefits processing activities and veterans’
                    services by conducting onsite inspections at VA Regional Offices (VAROs).
                    These independent inspections provide recurring oversight focused on
                    disability compensation claims processing and the performance of Veterans
                    Service Center (VSC) operations. The objectives of the inspections are to:

                    	 Evaluate how well VAROs are accomplishing their mission of providing
                       veterans with access to high-quality benefits and services.
                    	 Determine whether management controls ensure compliance with VA
                       regulations and policies; assist management in achieving program goals;
                       and minimize the risk of fraud, waste, and other abuses.
                    	 Identify and report systemic trends in VARO operations.

                    In addition to this oversight, inspections may examine issues or allegations
                    referred by VA employees, members of Congress, or other stakeholders.

Other               The following appendixes provide additional information.
Information
                    	 Appendix A includes details on the VARO and the scope of our
                       inspection.
                    	 Appendix B outlines criteria we used to evaluate each operational
                       activity and a summary of our inspection results.
                    	 Appendix C provides the Des Moines VARO Director’s comments on a
                       draft of this report.




VA Office of Inspector General                                                                 1
                                                                       Inspection of the VARO Des Moines, IA



                      RESULTS AND RECOMMENDATIONS
                      I. Disability Claims Processing

Claims                The OIG Benefits Inspection team focused on accuracy in processing
Processing            temporary 100 percent disability evaluations, traumatic brain injury (TBI)
Accuracy              claims, and special monthly compensation (SMC) and ancillary benefits. We
                      evaluated these claims processing issues and their impact on veterans’
                      benefits.

Finding 1             Des Moines VARO Could Improve Disability Claims Processing
                      Accuracy

                      The Des Moines VARO did not consistently process temporary 100 percent
                      disability evaluations, TBI-related cases, or entitlement to SMC and ancillary
                      benefits. Overall, VARO staff incorrectly processed 13 of the total
                      57 disability claims we sampled, resulting in 108 improper monthly
                      payments to 8 veterans totaling approximately $166,000.

                      We sampled claims related only to specific conditions that we considered at
                      increased risk of processing errors. As a result, the errors identified do not
                      represent the universe of disability claims or the overall accuracy rate at this
                      VARO. Table 1 reflects errors affecting, and those with the potential to
                      affect, veterans’ benefits processed at the Des Moines VARO.

                  Table 1. Des Moines VARO Disability Claims Processing Accuracy
                                                  Claims                    Claims
                                               Inaccurately              Inaccurately                Claims
                              Claims            Processed:                 Processed:             Inaccurately
        Type of Claim                                                                              Processed:
                             Reviewed            Affecting                Potential To
                                                Veterans’               Affect Veterans’             Total
                                                 Benefits                   Benefits
       Temporary 100
       Percent Disability         30                  3                         4                     7
       Evaluations
       TBI Claims                 18                  2                         1                     3
       SMC and Ancillary
                                   9                  3                         0                     3
       Benefits
        Total                     57                  8                         5                    13
       Source: VA OIG analysis of the Veterans Benefits Administration’s (VBA) temporary 100 percent
       disability evaluations paid at least 18 months, TBI disability claims completed in the first quarter fiscal
       year (FY) 2014, and SMC and ancillary benefits claims completed in calendar year 2013




VA Office of Inspector General                                                                                       2
                                                            Inspection of the VARO Des Moines, IA


Temporary           VARO staff incorrectly processed 7 of 30 temporary 100 percent disability
100 Percent         evaluations we reviewed. VBA policy requires a temporary 100 percent
Disability          disability evaluation for a veteran’s service-connected disability following
Evaluations
                    surgery or when specific treatment is needed. At the end of a mandated
                    period of convalescence or treatment, VARO staff must request a follow-up
                    medical examination to help determine whether to continue the veteran’s
                    100 percent disability evaluation.

                    For temporary 100 percent disability evaluations, VSC staff must input
                    suspense diaries in VBA’s electronic system. A suspense diary is a
                    processing command that establishes a date when VSC staff must schedule a
                    medical reexamination. As a suspense diary matures, the electronic system
                    generates a reminder notification to alert VSC staff to schedule the medical
                    reexamination.

                    When the VARO obtains evidence that a lower disability evaluation would
                    result in reduced compensation payments, Rating Veterans Service
                    Representatives (RVSRs) must inform the beneficiary of the proposed
                    reduction in benefits. In order to provide beneficiaries due process, VBA
                    allows 60 days for the veteran to submit additional evidence to show that
                    compensation payments should continue at their present level. On the 65th
                    day following due process notification, action is required to reduce the
                    evaluation and thereby minimize overpayments.

                    Without effective management of these temporary 100 percent disability
                    ratings, VBA has an increased risk of paying inaccurate financial benefits.
                    Available medical evidence showed 3 of the 7 processing errors we
                    identified affected benefits and resulted in 51 improper monthly payments to
                    3 veterans totaling approximately $106,000. These improper payments were
                    paid as monthly benefits to the veterans from March 2011 to March 2014.
                    Details on the errors affecting benefits follow.

                    	 An RVSR granted a temporary 100 percent disability evaluation for a
                       veteran’s prostate cancer on June 4, 2009, and requested a medical
                       reexamination in October 2010. However, staff did not schedule the
                       medical reexamination until February 2014. Based on the results of that
                       reexamination, staff proposed reducing the veteran’s temporary
                       100 percent disability evaluation to 20 percent disabling. Because of this
                       delay, VA overpaid the veteran approximately $65,573 over a period of
                       36 months.
                    	 An RVSR proposed reducing a veteran’s temporary 100 percent disability
                       evaluation for prostate cancer to 20 percent disabling. Staff sent a
                       notification letter to the veteran on January 3, 2013, advising him of the
                       proposed reduction. The due process period expired on March 9, 2013.
                       At the time of our review in April 2014, VARO staff had not taken action
                       on the proposed reduction. As a result, VA overpaid the veteran


VA Office of Inspector General                                                                 3
                                                             Inspection of the VARO Des Moines, IA


                        approximately $24,584 over a period of 9 months. Monthly benefits
                        continue to be paid at the 100 percent disability rate if no corrective
                        action is taken.
                    	 An RVSR proposed reducing a veteran’s temporary 100 percent disability
                       evaluation for prostate cancer to 20 percent disabling. Staff sent a
                       notification letter to the veteran on April 3, 2013, advising him of the
                       proposed reduction. The due process period expired on June 7, 2013. At
                       the time of our review in April 2014, VARO staff had not taken action on
                       the proposed reduction.        As a result, VA overpaid the veteran
                       approximately $16,116 over a period of 6 months. Monthly benefits
                       continue to be paid at the 100 percent disability rate if no corrective
                       action is taken.

                    The remaining four of the total seven errors had the potential to affect
                    veterans’ benefits. Following are details on the four errors:

                    	 In one case, an RVSR proposed to reduce a veteran’s temporary
                       100 percent disability evaluation for prostate cancer to 10 percent
                       disabling. Staff sent a notification letter on December 27, 2012, advising
                       him of the proposed reduction. The due process period expired on
                       March 2, 2013. When we inspected this VARO in April 2014, staff had
                       not taken action on the proposed reduction. This error had no effect on
                       the veteran’s current benefits payments but has the potential to affect
                       future benefits entitlements for prostate cancer, if that condition worsens.
                    	 An RVSR incorrectly continued a temporary 100 percent disability
                       evaluation for a veteran’s non-Hodgkin’s lymphoma and requested a
                       future reexamination in September 2014. Medical evidence showed the
                       condition was incurable. As required by VBA policy, staff should have
                       awarded entitlement to the additional benefit of Dependents’ Educational
                       Assistance without requesting a future reexamination.
                    	 A veteran continued to receive a temporary 100 percent disability
                       evaluation for prostate cancer despite an opinion by a VA medical
                       examiner indicating he could not determine whether there was evidence
                       of a recurrent disease. The examiner also opined that the veteran be
                       referred to his urologist. Without sufficient medical evidence, neither
                       VBA nor the OIG could determine whether the evaluation should
                       continue.
                    	 In the final case with the potential to affect benefits, staff received a
                       reminder notification on February 4, 2014, to schedule a medical
                       reexamination for a veteran’s prostate cancer. As of our inspection in
                       April 2014, staff had not taken action to schedule the examination. As a
                       result, neither VBA nor the OIG could determine whether the evaluation
                       should have continued because the veteran’s claims folder did not contain
                       sufficient medical evidence.


VA Office of Inspector General                                                                   4
                                                              Inspection of the VARO Des Moines, IA


                    Generally, errors occurred because VSC management did not prioritize
                    processing temporary 100 percent disability claims that required reduced
                    evaluations. Delays ranged from 11 months to 14 months, and an average of
                    13 months elapsed from the time staff should have reduced the temporary
                    100 percent disability evaluations. As of March 2014, staff had not taken the
                    required action on the three cases requiring benefits reductions. Management
                    stated they process temporary 100 percent disability cases to the best of their
                    ability along with their other workload priorities. Veterans may receive
                    benefits payments in excess of their eligibility when benefits reductions are
                    warranted but not processed. We provided VARO management with
                    131 claims remaining from our universe of 161 for its review to determine if
                    action is required.

                    VARO management concurred with three errors we identified and neither
                    concurred nor nonconcurred with three errors involving benefits reductions
                    and reexamination scheduling delays. Management responded, “Workload
                    priorities and the timeliness of processing is an issue that should be discussed
                    between leadership at the headquarters level for both OIG and VBA.” For
                    the remaining case, VARO management did not concur with the error we
                    identified involving a proposed reduction of prostate cancer benefits and
                    provided no clear discussion or criteria for this decision.
Follow-Up to        In our previous report, Inspection of the VA Regional Office, Des Moines,
Prior VA OIG
                    Iowa (Report No. 11-00511-164, May 11, 2011), VARO staff incorrectly
Inspection
                    processed 8 of 30 temporary 100 percent disability evaluations we reviewed.
                    The most frequent processing errors occurred because staff did not establish
                    or improperly canceled reminder notifications needed in the electronic
                    system to alert staff to schedule future reexaminations. This happened
                    because VARO management did not have a procedure in place requiring
                    staff to review rating decisions that may need future reexaminations. The
                    VARO concurred with our recommendation to implement controls to ensure
                    staff establish suspense diaries and follow the national plan to review
                    100 percent disability cases. The OIG closed this recommendation on
                    June 21, 2011, after VARO management stated it would follow the national
                    plan to review 100 percent disability evaluation cases.

                    During our April 2014 inspection, we did not identify any cases where staff
                    did not input suspense diaries in the electronic system as required. Therefore,
                    we determined the VSC’s actions in response to our previous
                    recommendation appeared to be effective.

TBI Claims          The Department of Defense and VBA commonly define a TBI as a
                    traumatically induced structural injury or a physiological disruption of brain
                    function caused by an external force. The major residual disabilities of TBI
                    fall into three main categories—physical, cognitive, and behavioral. VBA
                    policy requires staff to evaluate these residual disabilities. Additionally,
                    VBA policy requires that employees assigned to the appeals team, the special

VA Office of Inspector General                                                                    5
                                                            Inspection of the VARO Des Moines, IA


                    operations team, and the quality review team complete training on TBI
                    claims processing.

                    In response to a recommendation in our report, Systemic Issues Reported
                    During Inspections at VA Regional Offices (Report No. 11-00510-167,
                    May 18, 2011), VBA agreed to develop and implement a strategy for
                    ensuring the accuracy of TBI claims decisions. In May 2011, VBA provided
                    guidance to VARO Directors to implement a policy requiring a second
                    signature on each TBI case an RVSR evaluates until the RVSR demonstrates
                    90 percent accuracy in TBI claims processing. The policy indicates second-
                    signature reviewers come from the same pool of staff as those used to
                    conduct local station quality reviews.

                    We determined VARO staff incorrectly processed 3 of 18 TBI claims—
                    2 affected veterans’ benefits and resulted in one underpayment totaling
                    approximately $7,468 and one overpayment totaling approximately $792.
                    These errors represented 21 improper monthly payments from September
                    2012 to March 2014. Details on the two errors affecting veterans’ benefits
                    follow.

                    	 An RVSR improperly evaluated a veteran’s headaches due to a TBI.
                       Medical evidence showed the frequency and severity of headaches
                       warranted a higher evaluation. As a result, the veteran was underpaid
                       approximately $7,468 over a period of 18 months.
                    	 An RVSR granted a separate evaluation for a veteran’s tinnitus due to a
                       TBI when the veteran was already service-connected for the condition.
                       VBA policy does not allow concurrent compensation for the same
                       disability. As a result, the veteran was overpaid approximately $792 over
                       a period of 3 months.

                    The remaining processing error had the potential to affect a veteran’s
                    benefits. An RVSR continued the evaluation for TBI residuals using medical
                    examination reports containing conflicting information. Specifically, a
                    mental health examiner stated the veteran did not have a TBI and therefore
                    did not attempt to delineate current TBI-related symptoms from those due to
                    the coexisting mental condition. The RVSR should have returned the
                    examination for clarification per VBA policy. Neither VBA nor the OIG
                    could determine whether the TBI evaluation should have continued without
                    this clarification. VARO management concurred with all three processing
                    errors.

                    The three TBI processing errors were unique and did not constitute a
                    common trend, pattern, or systemic issue. Overall, VSC staff effectively
                    processed TBI claims we reviewed. Management stated this occurred
                    because RVSRs on the special operations team were more experienced, had
                    taken VBA’s mandatory TBI training, and had met the 90 percent accuracy
                    requirements for processing TBI claims. Because we determined the VARO

VA Office of Inspector General                                                                 6
                                                              Inspection of the VARO Des Moines, IA


                    generally followed VBA policy when processing these claims, we made no
                    recommendation for improvement in this area.

Follow-Up to        In our previous report, Inspection of the VA Regional Office, Des Moines,
Prior VA OIG        Iowa (Report No. 11-00511-164, May 11, 2011), we determined processing
Inspection          errors occurred because RVSRs used their own interpretations of
                    examination reports to decide TBI claims. The VARO concurred with our
                    recommendations to provide refresher training on the proper evaluation of
                    TBI-related disabilities and to implement a plan for staff to return
                    insufficient examination reports to medical facilities for clarification. The
                    OIG closed these recommendations after the VARO provided documentation
                    of the refresher training.

                    We did not identify similar errors during our April 2014 inspection. As
                    such, we determined the VARO’s actions in response to our previous
                    recommendations appeared to be effective.

Special Monthly     As the concept of rating disabilities evolved, VBA realized that for certain
Compensation        types of disabilities, the basic rate of compensation was not sufficient for the
and Ancillary
Benefits
                    level of disability present. Therefore, VBA established SMC to recognize
                    the severity of certain disabilities or combinations of disabilities by adding
                    additional compensation to the basic rate of payment. SMC represents
                    payments for “quality of life” issues, such as the loss of an eye or limb, or
                    the need to rely on others for daily life activities, like bathing or eating.
                    Generally, VBA grants entitlement to SMC when the following conditions
                    exist.

                    	 Anatomical loss or loss of use of specific organs, sensory functions, or
                       extremities
                    	 Disabilities that render the veteran permanently bedridden or in need of
                       aid and attendance
                    	 Combinations of severe disabilities that significantly affect locomotion
                    	 Existence of multiple, independent disabilities that are evaluated as 50 to
                       100 percent disabling
                    	 Existence of multiple disabilities that render the veteran in need of such a
                       degree of special skilled assistance that without it, the veteran would be
                       permanently confined to a skilled-care nursing home

                    Ancillary benefits are secondary benefits that are considered when evaluating
                    claims for SMC. Examples of ancillary benefits are:

                    	 Dependents’ Educational Assistance under section 35, title 38, United
                       States Code
                    	 Specially Adapted Housing Grant


VA Office of Inspector General                                                                    7
                                                              Inspection of the VARO Des Moines, IA


                       Special Home Adaptation Grant
                    	 Automobile and Other Conveyance and Adaptive Equipment Allowance

                    VBA policy requires staff to address the issues of SMC and ancillary
                    benefits whenever they can grant entitlement. We focused our review on
                    whether VARO staff accurately processed entitlement to SMC and ancillary
                    benefits associated with anatomical loss, loss of use of two or more
                    extremities, or bilateral blindness with visual acuity of 5/200 or worse.

                    VARO staff incorrectly processed three of nine claims involving SMC and
                    ancillary benefits—all three affected veterans’ benefits and resulted in
                    overpayments totaling approximately $40,600 and underpayments totaling
                    approximately $10,900. These errors represented 36 improper monthly
                    payments from April 2012 until March 2014. Details on these errors
                    affecting benefits follow.

                    	 In one case, an RVSR assigned two incorrect levels of SMC.
                       Specifically, the RVSR granted higher levels of SMC requiring two
                       separate 100 percent disability evaluations, which the veteran did not
                       have as of April 2014 when we inspected the VARO. As a result, VA
                       overpaid the veteran approximately $40,605 over a period of 14 months.
                    	 Another veteran was denied service connection for a urinary condition,
                       which, together with his loss of use of his lower extremities, warranted a
                       higher evaluation for SMC. As a result, VA underpaid the veteran
                       approximately $7,793 over a period of 15 months.
                    	 An RVSR assigned an incorrect effective date of October 1, 2012, for
                       entitlement to SMC based on a veteran’s loss of use of his left elbow and
                       knee. The correct effective date was March 24, 2012. As a result, VA
                       underpaid the veteran approximately $3,080 over a period of 7 months.

                    Two of the three errors related to SMC occurred because VSC management
                    did not have a second-signature review process in effect for these claims.
                    The VSC manager stated a second-signature review process for SMC cases
                    was not needed at the VARO since all RVSRs who were required to
                    complete SMC claims had passed a VBA certification test. Regarding the
                    third error, the special operations team did not process the claim. Although
                    VBA policy states the special operations team should complete SMC claims,
                    VARO staff informed us they did not follow this policy for all SMC claims.
                    Staff stated that once they began working on an SMC claim, they typically
                    would not stop processing it just to transfer it to the special operations team.
                    In contrast, the VSC Manager stated the special operations team was
                    required to process these cases. When VSC management did not ensure staff
                    consistently followed claims processing policy, veterans did not always
                    receive accurate benefit payments.



VA Office of Inspector General                                                                    8
                                                             Inspection of the VARO Des Moines, IA


                    Recommendations

                    1.	 We recommend the Des Moines VA Regional Office Director conduct a
                        review of the 131 temporary 100 percent disability evaluations remaining
                        from our inspection universe and take appropriate action.

                    2.	 We recommend the Des Moines VA Regional Office Director implement
                        a plan for an additional level of review of special monthly compensation
                        claims.

                    3.	 We recommend the Des Moines VA Regional Office Director implement
                        a plan to ensure staff follow the policy for the special operations team to
                        process special monthly compensation decisions.

Management          The VARO Director concurred with our recommendations. VARO staff will
Comments            complete a review of the remaining 131 temporary 100 percent disability
                    evaluations by September 1, 2014. As an additional level of review, Local
                    Quality Review staff will review all SMC cases completed during randomly
                    selected months and provide on the spot training for any errors identified.
                    Further, Local Quality Review staff will identify any SMC cases worked
                    outside of the Special Operations team and notify management to ensure that
                    the team processes these cases.

OIG Response        The Director’s comments and actions are responsive to the
                    recommendations. We will follow up on management’s actions during
                    future inspections.




VA Office of Inspector General                                                                   9
                                                            Inspection of the VARO Des Moines, IA


                    II. Management Controls

Systematic          We assessed whether VARO management had adequate controls in place to
Analysis of         ensure complete and timely submission of Systematic Analyses of
Operations
                    Operations (SAOs). We also considered whether VSC staff used adequate
                    data to support analyses and recommendations identified within each SAO.
                    An SAO is a formal analysis of an organizational element or operational
                    function. SAOs provide an organized means of reviewing VSC operations to
                    identify existing or potential problems and propose corrective actions.
                    VARO management must publish annual SAO schedules designating the
                    staff required to complete the SAOs by specific dates. The VSC manager is
                    responsible for ongoing analysis of VSC operations, including completing
                    11 SAOs annually.

                    One of the 11 SAOs was incomplete because it did not include an analysis of
                    all required elements. The remaining 10 SAOs included thorough analyses
                    based on appropriate data, identified deficient areas, and made
                    recommendations for improving business operations. As a result, we
                    determined the VARO generally followed VBA policy and we made no
                    recommendation for improvement in this area.

Follow-Up to        In our previous report, Inspection of the VA Regional Office, Des Moines,
Prior VA OIG        Iowa (Report No. 11-00511-14, May 11, 2011), we found that 1 of the
Inspection
                    12 mandated SAOs was not completed timely per the annual schedule. We
                    did not consider the error rate significant, so we made no recommendation
                    for improvement in this area. During our April 2014 inspection, staff timely
                    submitted all 11 required SAOs.

Benefits            VBA policy provides for compensation to veterans for conditions they
Reductions          incurred or aggravated during military service. The amount of monthly
                    compensation to which a veteran is entitled may change because his or her
                    service-connected disability may improve. Improper payments associated
                    with benefits reductions generally occur when beneficiaries receive
                    payments to which they are not entitled. Such instances are attributable to
                    VAROs not taking the actions required to ensure correct payments for the
                    veterans’ current levels of disability.

                    When the VARO obtains evidence that a lower disability evaluation would
                    result in a reduction or discontinuance of current compensation payments,
                    VSC staff must inform the beneficiary of the proposed reduction in benefits.
                    In order to provide the beneficiary due process, VBA allows 60 days for the
                    veteran to submit additional evidence to show that compensation payments
                    should continue at their present level. If the VARO does not receive
                    additional evidence within that period, an RVSR must make a final
                    determination to reduce or discontinue the benefit. On the 65th day following
                    due process notification, action is required to reduce the evaluation and
                    thereby minimize overpayments.

VA Office of Inspector General                                                                10
                                                             Inspection of the VARO Des Moines, IA


                    On April 3, 2014, VBA leadership modified its policy regarding the
                    processing of claims requiring benefits reductions. The new policy no longer
                    includes the requirement for VARO staff to take “immediate action” to
                    process these reductions. In lieu of merely removing the vague standard,
                    VBA should have provided clearer guidance on prioritizing this work to
                    ensure sound financial stewardship of these monetary benefits.

Finding 2	          Des Moines VARO Lacked Oversight To Ensure Timely Action
                    On Proposed Benefits Reductions

                    VARO staff incorrectly processed 20 of 30 cases involving proposed benefits
                    reductions. These errors occurred due to a lack of priority on timely
                    processing benefits reductions.     Processing inaccuracies resulted in
                    overpayments totaling approximately $146,733. This amount represented
                    105 improper monthly payments to 18 veterans from November 2012 to
                    March 2014.

Processing          Processing delays occurred in 17 of 30 claims that required rating decisions
Delays              to reduce or discontinue benefits. An average of 6 months elapsed from the
                    time staff should have taken action to reduce the evaluations for all 17 cases.
                    In the case with the most significant overpayment, VSC staff sent a letter to
                    the veteran on July 25, 2012, proposing reducing the evaluation for a right
                    foot condition, and discontinuing service connection for a somatization
                    disorder as well as entitlement to the additional benefit of Dependents’
                    Educational Assistance.         The due process period expired on
                    September 28, 2012. However, staff did not take action to reduce the
                    benefits until October 7, 2013. As a result, VA overpaid the veteran
                    approximately $30,415 over a period of 15 months.

                    For the remaining 16 cases, processing delays ranged from 1 to 16 months.
                    In the case with the most significant delay, VSC staff sent a letter to the
                    veteran on June 5, 2012, proposing reducing benefits for his prostate cancer.
                    The due process period expired on August 9, 2012. However, staff did not
                    take action to reduce the evaluation until December 18, 2013. As a result,
                    VA overpaid the veteran $5,386 over a period of 16 months.

                    Generally, these delays occurred because VBA did not assign this workload
                    as a priority. Because of national changes to workload management, VSC
                    leadership did not prioritize processing benefits reductions. Although the
                    VSC’s Workload Management Plan placed special emphasis on proposed
                    benefits reductions, the VSC concentrated instead on national priorities that
                    included processing claims pending over 2 years. Both management and
                    staff confirmed there was no emphasis on timely following through with
                    proposed rating reductions. Staff additionally stated benefits reductions were
                    easy to process, they could complete an average of one to three of these cases
                    in 1 hour, and processing these cases would have minimal impact on their
                    other workload.

VA Office of Inspector General                                                                  11
                                                              Inspection of the VARO Des Moines, IA


Accuracy Errors     VARO staff incorrectly reduced evaluations in 5 of 30 claims involving
                    proposed benefits reductions; 2 of the 5 also involved processing delays.
                    Three of these errors led to overpayments totaling approximately $26,455.
                    Two cases had the potential to affect benefits, as the actions taken did not
                    currently impact the veterans’ payments. Following are details on the five
                    errors.

                    	 The most significant overpayment occurred when an RVSR proposed
                       reducing a veteran’s 100 percent disability evaluation for leukemia to
                       10 percent disabling, although medical evidence showed the condition
                       warranted a 0 percent evaluation. Because a delay in processing the
                       reduction occurred, VA overpaid the veteran approximately $19,523 over
                       a period of 11 months.
                    	 An RVSR incorrectly reduced a veteran’s 100 percent evaluation for
                       prostate cancer to 60 percent disabling, instead of the proposed
                       80 percent evaluation. VA ultimately overpaid the veteran $5,386 over a
                       period of 16 months because of the incorrect evaluation as well as a delay
                       in processing the reduction.
                    	 An RVSR properly discontinued entitlement to service-related
                       unemployability benefits effective December 1, 2013. However, staff
                       did not properly discontinue unemployability payments until
                       January 1, 2014. As a result, VA overpaid the veteran $1,546 over a
                       period of 1 month.
                    	 An RVSR proposed reducing a veteran’s 100 percent disability
                       evaluation for prostate cancer based on results from a premature medical
                       examination. Per VBA policy, VARO staff must request a follow-up
                       medical examination 6 months following completion of treatment. In
                       this case, staff requested the medical examination 1 month after
                       completion of treatment. This error has the potential to affect the
                       veteran’s benefits. Neither VBA nor the OIG can determine the correct
                       level of disability without sufficient medical evidence.
                    	 In the final case, an RVSR properly proposed to correct a prior decision
                       by discontinuing a separate evaluation for hypertension and combining
                       this disability with the veteran’s renal insufficiency. However, the
                       RVSR also incorrectly increased the overall evaluation from
                       March 7, 2001, to September 2, 2008. Although this action did not result
                       in incorrect payments to the veteran, it has the potential to affect future
                       benefits if the veteran’s other disabilities worsen or if a new disability is
                       service-connected.

                    The five errors involving incorrectly proposed reductions were unique and
                    did not constitute a common trend, pattern, or systemic issue. Therefore, we
                    made no recommendation for improvement in this area.



VA Office of Inspector General                                                                   12
                                                            Inspection of the VARO Des Moines, IA


                    Of the 20 total cases with errors, VARO management concurred with the
                    5 cases that involved inaccurate processing. Although we showed VARO
                    management and staff VBA criteria requiring action on the 65th day
                    following due process notification, they did not concur or nonconcur with the
                    remaining 15 benefits reductions involving processing delays. In these
                    cases, VARO managers noted, "Workload priorities and the timeliness of
                    processing is an issue that should be discussed between leadership at the
                    headquarters level for both OIG and VBA." Without appropriate priority set
                    for this type of work, delays in processing reductions result in unsound
                    financial stewardship of veterans’ monetary benefits and failure to minimize
                    overpayments.

                    Recommendation

                    4.	 We recommend the Des Moines VA Regional Office Director develop
                        and implement a plan to ensure staff prioritize processing of benefits
                        reductions at the expiration of due process as required.

Management          The VARO Director concurred with our recommendation and developed a
Comments            plan to ensure the Non-Rating team prioritizes the processing of benefits
                    reductions.

OIG Response        The Director’s comments and actions are responsive to the recommendation.
                    We will follow up on management’s actions during future inspections.




VA Office of Inspector General                                                                13
                                                            Inspection of the VARO Des Moines, IA


Appendix A          VARO Profile and Scope of Inspection

Organization        The Des Moines VARO administers a variety of services and benefits,
                    including compensation and pension benefits; vocational rehabilitation and
                    employment assistance; specially adapted housing grants; benefits
                    counseling; public affairs; and outreach to homeless, elderly, minority, and
                    women veterans.

Resources           As of February 2014, the Des Moines VARO reported a staffing level of
                    105.4 full-time employees. Of this total, the VSC had 80.1 employees
                    assigned.

Workload            As of February 2014, VBA reported the Des Moines VARO had
                    5,230 pending compensation claims. On average, claims were pending
                    168.1 days—53.1 days more than the national target of 115.

Scope and           VBA has 56 VAROs and a VSC in Cheyenne, WY, that process disability
Methodology         claims and provide a range of service to veterans. In April 2014, we
                    evaluated the Des Moines VARO to see how well it accomplishes this
                    mission.

                    We reviewed selected management, claims processing, and administrative
                    activities to evaluate compliance with VBA policies regarding benefits
                    delivery and nonmedical services provided to veterans and other
                    beneficiaries. We interviewed managers and employees and reviewed
                    veterans’ claims folders. Prior to conducting our onsite inspection, we
                    coordinated with VA OIG criminal investigators to provide a briefing
                    designed to alert VARO staff to the indicators of fraud in claims processing.

                    Our review included 30 (19 percent) of 161 temporary 100 percent disability
                    evaluations selected from VBA’s Corporate Database. These claims
                    represented instances where VBA staff had granted temporary 100 percent
                    disability evaluations for at least 18 months as of January 25, 2014. This is
                    generally the longest period a temporary 100 percent disability evaluation
                    may be assigned without review, according to VBA policy. We provided
                    VARO management with 131 claims remaining from our universe of 161 for
                    its review. We reviewed 18 (95 percent) of 19 disability claims related to
                    TBI that the VARO completed from October 1, 2013, through December
                    31, 2013. We also examined 9 of 10 veterans’ claims available involving
                    entitlement to SMC and ancillary benefits that VARO staff completed from
                    January 1, 2013, through December 31, 2013.

                    Prior to VBA consolidating Fiduciary Activities nationally, each VARO was
                    required to complete 12 SAOs. However, since the Fiduciary Activities
                    consolidation, the VAROs are only required to complete 11 SAOs.
                    Therefore, we reviewed 11 SAOs related to VARO operations. Additionally,


VA Office of Inspector General                                                                14
                                                             Inspection of the VARO Des Moines, IA


                    we looked at 30 (21 percent) of 144 completed claims involving proposed
                    benefits reductions from October 1, 2013, through December 31, 2013.

                    Where we identify potential procedural inaccuracies, we provide this
                    information to help the VARO understand the procedural improvements it
                    can make for enhanced stewardship of financial benefits. We do not provide
                    this information to require the VARO to adjust specific veterans’ benefits.
                    Processing any adjustments per this review is clearly a VBA program
                    management decision.

Data Reliability    We used computer-processed data from the Veterans Service Network’s
                    Operations Reports and Awards. To test for reliability, we reviewed the data
                    to determine whether any were missing from key fields, included calculation
                    errors, or were outside the timeframe requested. We assessed whether the
                    data contained obvious duplication of records, alphabetic or numeric
                    characters in incorrect fields, or illogical relationships among data elements.
                    Further, we compared veterans’ names, file numbers, Social Security
                    numbers, dates of claim, and decision dates as provided in the data received
                    with information contained in the 87 claims folders we reviewed related to
                    temporary 100 percent disability evaluations, TBI claims, SMC and ancillary
                    benefits, and completed claims involving proposed benefits reductions.

                    Our testing of the data disclosed that they were sufficiently reliable for our
                    inspection objectives. Our comparison of the data with information
                    contained in the veterans’ claims folders we reviewed did not disclose any
                    problems with data reliability.

                    This report references VBA’s STAR data. As reported by VBA’s STAR
                    program as of February 2014, the overall claims-based accuracy of the
                    VARO’s compensation rating-related decisions was 94.3 percent. We did
                    not test the reliability of this data.

Inspection          We conducted this inspection in accordance with the Council of the
Standards           Inspectors General on Integrity and Efficiency’s Quality Standards for
                    Inspection and Evaluation.




VA Office of Inspector General                                                                  15
                                                                            Inspection of the VARO Des Moines, IA


Appendix B               Inspection Summary

                         Table 2 reflects the operational activities inspected, applicable criteria, and
                         whether or not we had reasonable assurance of VARO compliance.

                            Table 2. Des Moines VARO Inspection Summary
      Operational                                                                                Reasonable
       Activities                                      Criteria                                  Assurance of
       Inspected                                                                                 Compliance
        Disability
         Claims
        Processing
    Temporary               Determine whether VARO staff properly reviewed temporary
    100 Percent             100 percent disability evaluations. (38 CFR 3.103(b)) (38
    Disability              CFR 3.105(e)) (38 CFR 3.327) (M21-1 MR Part IV, Subpart                  No
    Evaluations             ii, Chapter 2, Section J) (M21-1MR Part III, Subpart iv,
                            Chapter 3, Section C.17.e)
    Traumatic Brain         Determine whether VARO staff properly processed claims for
    Injury Claims           service connection for all disabilities related to in-service TBI.       Yes
                            (FL 08-34 and 08-36) (Training Letter 09-01)
    Special Monthly         Determine whether VARO staff properly processed SMC and
    Compensation and        correctly granted entitlement to ancillary benefits. (38 CFR
                                                                                                     No
    Ancillary Benefits      3.350, 3.352, 3.807, 3.808, 3.809, 3.809a, 4.63, and 4.64)
                            (M21-1MR IV.ii.2.H and I)
      Management
       Controls
    Systematic              Determine whether VARO staff properly performed formal
    Analysis of             analyses of their operations through completion of SAOs.                 Yes
    Operations              (M21-4, Chapter 5)
    Proposed Benefits       Determine whether VARO staff timely and accurately
    Reductions              processed disability evaluation reductions or terminations. (38
                            CFR 3.103(b)(2), 38 CFR 3.105(e), 38 CFR 3.501, M21­
                                                                                                     No
                            1MR.IV.ii.3.A.3.e, M21-1MR.I.2.B.7.a, M21-1MR.I.2.C,
                            M21-1MR.I.ii.2.f, M21-4, Chapter 2.05(f)(4), (Compensation
                            & Pension Service Bulletin, October 2010)
    Source: VA OIG
    CFR=Code of Federal Regulations, FL=Fast Letter, M=Manual, MR=Manual Rewrite




VA Office of Inspector General                                                                                  16
                                                                   Inspection of the VARO Des Moines, IA


Appendix C            VARO Director’s Comments


               Department of
               Veterans Affairs
                                                          Memorandum
       Date:      July 17, 2014
       From:
                  Director, VA Regional Office Des Moines, Iowa
       Subj:
                  Inspection of the VA Regional Office, Des Moines, Iowa

         To:
                  Assistant Inspector General for Audits and Evaluations (52)



               1. The Des Moines VARO’s comments are attached on the OIG Draft Report:
                  Inspection of the VA Regional Office, Des Moines, Iowa.
               2.	 Please refer questions to Mr. Chad Christensen, Acting Veterans Service
                   Center Manager, at (515) 323-7444.


                  (Original signed)

                  Terri A. Beer

                  Director



                  Attachment




VA Office of Inspector General                                                                       17
                                                                Inspection of the VARO Des Moines, IA


                                                                                           Attachment
                             DES MOINES VA REGIONAL OFFICE (333)
                               COMMENTS ON OIG DRAFT REPORT

OIG Recommendations:

Recommendation 1: We recommend the Des Moines VA Regional Office Director conduct a review of
the 131 temporary 100 percent disability evaluations remaining from our inspection universe and take
appropriate action.

    Des Moines RO Response: Concur

    The Des Moines Regional Office is in the process of reviewing the remaining 131 temporary
    100 percent disability evaluations identified.

    Target Completion Date: September 1, 2014

Recommendation 2: We recommend the Des Moines VA Regional Office Director implement a plan for
an additional level of review of special monthly compensation claims.

    Des Moines RO Response: Concur

    Local Quality Review Specialists will conduct a review of all SMC cases completed through
    September 2014. The RO will continue to have Local Quality Review Specialists conduct a review
    of all SMC cases completed during randomly selected months twice during the fiscal year. Any
    errors noted will result in on the spot training.

    Target Completion Date: October 31, 2014

Recommendation 3: We recommend the Des Moines VA Regional Office Director implement a plan to
ensure staff follows the policy for the special operations team to process special monthly compensation
decisions

    Des Moines RO Response: Concur

    When conducting a review of an SMC case Local Quality Review Specialists will note if the SMC
    case was worked outside of the Special Operations lane, if so management will be notified and any
    appropriate action will be taken to ensure continued processing of SMC cases by the Special
    Operations team.

    Target Completion Date: September 30, 2014

Recommendation 4: We recommend the Des Moines VA Regional Office Director develop and
implement a plan to ensure staff prioritize processing of benefits reductions at the expiration of due
process as required.

    Des Moines RO Response: Concur

    The Des Moines Regional Office has developed a plan to ensure staff prioritize processing of
    benefits reductions at the expiration of due process as required. The Workload Management Plan
    places the responsibility for processing all 600 End Products (EP) on the Non-Rating Team. The EP
    600s which require a rating decision are routed to the respective team; Express, Core, or Special
    Operations, based on the number and type of issues.




VA Office of Inspector General                                                                      18
                                                                Inspection of the VARO Des Moines, IA


    In order to ensure timely completion of the EP 600’s which require a rating for completion, the Des
    Moines Regional Office will, on a monthly basis, use VETSNET Operational Reports (VOR) and
    Veterans Benefit Management System (VBMS) reports to identify which of the aforementioned EP
    600s have had expiration of due process and route the files to the appropriate team for a rating
    decision. With concern to the remaining EP 600s, the timeframe for completion varies based on
    competing workload demands and national directives. The Des Moines Regional Office will
    continue to take action on the remaining EP600s as expeditiously as possible as the competing
    workload demands and national directives allow.

    Target Completion Date: September 1, 2014




VA Office of Inspector General                                                                      19
                                                   Inspection of the VARO Des Moines, IA


Appendix D          OIG Contact and Staff Acknowledgments

                      OIG Contact	       For more information about this report, please
                                         contact the Office of Inspector General at
                                         (202) 461-4720.
                      Acknowledgments	   Brent Arronte, Director
                                         Orlan Braman
                                         Daphne Brantley
                                         Brett Byrd
                                         Scott Harris
                                         Ambreen Husain
                                         David Piña
                                         Rachel Stroup
                                         Nelvy Viguera Butler
                                         Diane Wilson




VA Office of Inspector General                                                       20
                                                           Inspection of the VARO Des Moines, IA


Appendix E          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Benefits Administration
                    Assistant Secretaries
                    Office of General Counsel
                    Veterans Benefits Administration Central Area Director
                    VA Regional Office Des Moines Director

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                     Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                     Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget
                    U.S. Senate: Chuck Grassley, Tom Harkin
                    U.S. House of Representatives: Bruce L. Braley, Steve King, Tom Latham,
                     David Loebsack




                This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                               21
